No. 19-465

3u The oupreme Court ®f The aniteb otateg;
PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,
PETITIONERS,
V.

CERTIFICATE OF
WORD COUNT

STATE OF WASHINGTON,
RESPONDENTS.

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief In Opposition, which was prepared using Century Schoolbook
12-point typeface, contains 8,257 words, excluding the parts of the document that are
exempted by Rule 33.1(d). This certificate was prepared in reliance on the word-count
function of the word-processing system (Microsoft Word) used to prepare the
document.
I am a member of the Bar of the Supreme Court of the United States.
DATED this 8th day of November 2019.

TERA HEINTZ
Deputy Solicitor General
1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

